NO:
IN THE SUPREME COURT OF THE UNITED STATES

LUCAS NEWNAM, Petitioner
v.
COMMONWEALTH OF PENNSYLVANIA, Respondent
CERTIFICATE OF SERVICE
Pursuant to this Court’s Rule 29.5(b), I certify that I am a member of the Bar
of this Court. I further certify that on September 13, 2019, at the time of express
delivery to this Court, I served the foregoing Application, pursuant to Rules 29,3
and 29.4(a), on counsel for the respondent, whose telephone number is 717-299-
8000, by depositing a copy of the same, first class postage prepaid, in the United
States mails, addressed to:
Lancaster County Assistant District Attorney
Lancaster County Government Center
150 N Queen St.
Lancaster, Pennsylvania 17603
I also emailed a copy to "CSteadman@co. lancaster.pa.us." and uploaded the
Application to this Court’s electronic filing system. As a result, I state pursuant to

Rule 29.5 that all parties required to be served have been served.
TODD M. MOSSER, ESQUIRE

IDENTIFICATION NO. 87534
MOSSER LEGAL, PLLC
448 North 10". St., Suite 502
PHILADELPHIA, PA 19123
todd@mosserlegal.com
Date: 9/13/19 (215) 567-1220

Counsel for Applicant
